Department of Health and Human Services Office of Inspector General Washington, D C 202 01




April 12, 2012


TO:                                                                                          Peter Budetti
                                                                                             Deputy Administrator and Director
                                                                                             Center for Program Integrity
                                                                                             Centers for Medicare & Medicaid Services

                                                                                             Deborah Taylor
                                                                                             Director and Chief Financial Officer
                                                                                             Office of Financial Management
                                                                                             Centers for Medicare & Medicaid Services

FROM:                                                                                        /Brian P. Ritchie/
                                                                                             Assistant Inspector General for the
                                                                                               Centers for Medicare & Medicaid Audits

SUBJECT:                                                                                     Medicare Compliance Review of Bay Medical Center for Calendar Years 2009
                                                                                             and 2010 (A-04-11-08006) and Medicare Compliance Review of Kent County
                                                                                             Hospital for Calendar Years 2009 and 2010 (A-01-11-00537)


Attached, for your information are advance copies of two of our final reports for hospital
compliance reviews. We will issue these reports to Bay Medical Center and Kent County
Hospital within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov, or your staff may contact the
respective Regional Inspectors General for Audit Services:

Bay Medical Center
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV
(404) 562-7750, email – Lori.Pilcher@oig.hhs.gov
Page 2 – Peter Budetti and Deborah Taylor

Kent County Hospital
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I
(617) 565-2684, email – Michael.Armstrong@oig.hhs.gov

Attachment

cc:    Daniel Converse
       Office of Strategic Operations and Regulatory Affairs,
       Centers for Medicare & Medicaid Services
                                                               O FFICE OF A UDIT S ERVICES , R EGION I
                                                                             JFK F EDERAL B UILDING
                                                              15 N EW S UDBURY S TREET, R OOM 2425
                                                                                B OSTON , MA 02203
April 16, 2012

Report Number: A-01-11-00537

Mr. Paul Beaudoin
Senior Vice President of Finance
Kent County Memorial Hospital
455 Toll Gate Road
Warwick, RI 02886

Dear Mr. Beaudoin:

Enclosed is the U.S. Department of Health and Human Services, Office of Inspector General
(OIG), final report entitled Medicare Compliance Review of Kent County Hospital for Calendar
Years 2009 and 2010. We will forward a copy of this report to the HHS action official noted on
the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact David Lamir, Audit Manager, at (617) 565-2704 or through email at
David.Lamir@oig.hhs.gov. Please refer to report number A-01-11-00537 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Paul Beaudoin


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     MEDICARE COMPLIANCE
    REVIEW OF KENT COUNTY
    HOSPITAL FOR CALENDAR
      YEARS 2009 AND 2010




                       Daniel R. Levinson
                        Inspector General

                           April 2012
                         A-01-11-00537
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997 (P.L. No. 105-33) and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999 (P.L. No. 106-113). Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Kent County Hospital (the Hospital) is a 359-bed healthcare system located in Warwick, Rhode
Island. Medicare paid the Hospital approximately $40 million for 1,115 inpatient and 153,448
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010 based on CMS’s National Claims History data.

Our audit covered $1,546,717 in Medicare payments to the Hospital for 171 claims that we
judgmentally selected as potentially at risk for billing errors. These 171 claims had dates of
service in CYs 2009 and 2010 and consisted of 146 inpatient and 25 outpatient claims.

OBJECTIVE

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.




                                                 i
SUMMARY OF FINDINGS

The Hospital complied with Medicare billing requirements for 155 of the 171 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 16 claims resulting in overpayments totaling $26,804 for
CYs 2009 and 2010. Specifically, 6 inpatient claims had billing errors, resulting in
overpayments totaling $23,015, and 10 outpatient claims had billing errors, resulting in
overpayments totaling $3,789. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $26,804, consisting of $23,015 in overpayments for 6
       incorrectly billed inpatient claims and $3,789 in overpayments for 10 incorrectly billed
       outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

KENT COUNTY HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ..........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Kent County Hospital ....................................................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Inpatient Short Stays ......................................................................................................5
          Inpatient Claims for High Severity Level Diagnosis-Related Group Codes .................5

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................5
          Outpatient Observation Services That Resulted in Outlier Payments ...........................6

      RECOMMENDATIONS .......................................................................................................6

      KENT COUNTY HOSPITAL COMMENTS .......................................................................6

APPENDIX

      KENT COUNTY HOSPITAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS employs Medicare contractors to, among other things, process and pay claims submitted by
hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
inpatient hospital services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays incurring extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997 (P.L. No. 105-33) and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999 (P.L. No. 106-113). 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (P.L. No. 108-173)
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For the purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
MAC, whichever is applicable.
2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.


                                                         1
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis of claims. Examples of the types of claims at risk for noncompliance include the
following:

    •    inpatient short stays,

    •    inpatient same-day discharges and readmissions,

    •    inpatient claims with high severity level DRG codes,

    •    inpatient claims paid in excess of charges,

    •    inpatient claims with adverse inpatient hospital-acquired conditions and present on
         admission indicator reporting,

    •    inpatient claims with medical device replacements, and

    •    outpatient claims billed with observation services that resulted in outlier payments.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” In addition, section 1833(e) of the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of the
payment.



3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.

                                                        2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Kent County Hospital

Kent County Hospital (the Hospital) is a 359-bed healthcare system located in Warwick, Rhode
Island. Medicare paid the Hospital approximately $40 million for 1,115 inpatient and 153,448
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010 based on CMS’s National Claims History data.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Hospital complied with Medicare requirements for
billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $1,546,717 in Medicare payments to the Hospital for 171 claims that we
judgmentally selected as potentially at risk for billing errors. These 171 claims had dates of
service in CYs 2009 and 2010 and consisted of 146 inpatient and 25 outpatient claims.

We focused our review on the risk areas that we had identified during and as a result of prior
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements but
did not use medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. Our review enabled us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from the National
Claims History file, but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from October 2011 through January 2012.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;



                                                 3
   •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
       Claims History file for CYs 2009 and 2010;

   •   obtained information on known credits for replacement cardiac medical devices from the
       device manufacturers for CYs 2009 and 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 171 claims (146 inpatient and 25 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by the Hospital
       to support the sampled claims;

   •   requested that the Hospital conduct its own review of selected sampled claims to
       determine whether the services were billed correctly;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustments; and

   •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The Hospital complied with Medicare billing requirements for 155 of the 171 inpatient and
outpatient claims we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 16 claims resulting in overpayments totaling $26,804 for
CYs 2009 and 2010. Specifically, 6 inpatient claims had billing errors, resulting in
overpayments totaling $23,015, and 10 outpatient claims had billing errors, resulting in
overpayments totaling $3,789. Overpayments occurred primarily because the Hospital did not
have adequate controls to prevent incorrect billing of Medicare claims and did not fully
understand the Medicare billing requirements.



                                                4
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 6 of the 146 sampled inpatient claims that we
reviewed. These errors resulted in overpayments totaling $23,015.

Inpatient Short Stays

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items or
services that “are not reasonable and necessary for the diagnosis or treatment of illness or injury
or to improve the functioning of a malformed body member.” Section 1814(a)(3) of the Act
states that payment for services furnished to an individual may be made only to providers of
services that are eligible and only if, “with respect to inpatient hospital services ... which are
furnished over a period of time, a physician certifies that such services are required to be given
on an inpatient basis for such individual’s medical treatment ….”

For 5 of the 82 sampled claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that did not have valid physician orders to admit beneficiaries to inpatient care (3 errors) or
that should have been billed as outpatient or outpatient with observation (2 errors).

The Hospital attributed the patient admission errors to inadequate internal controls over its case
management department’s processes and procedures. Specifically, case management did not
always have the opportunity to review patient stays of short duration or admission criteria was
improperly applied due to human error. As a result, the Hospital received overpayments totaling
$16,030.

Inpatient Claims for High Severity Level Diagnosis-Related Group Codes

Section 1814(a)(3) of the Act states that payment for services furnished to an individual may be
made only to providers of services that are eligible and only if, “with respect to inpatient hospital
services ... which are furnished over a period of time, a physician certifies that such services are
required to be given on an inpatient basis for such individual’s medical treatment ….”

For 1 of the 29 sampled claims, the Hospital billed Medicare for an inpatient claim that did not
have a valid physician order to admit the beneficiary to inpatient care. The Hospital attributed
the patient admission error to inadequate internal controls over its case management
department’s processes and procedures. As a result, the Hospital received overpayments totaling
$6,985.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 10 of 25 sampled outpatient claims, which resulted
in overpayments totaling $3,789.




                                                  5
Outpatient Observation Services That Resulted in Outlier Payments

The Manual, chapter 4, section 290.2.1, states: “Observation services are covered only when
provided by the order of a physician or another individual authorized by State licensure law and
hospital staff bylaws to admit patients to the hospital or to order outpatient services.” Chapter 4,
section 290.2.2, states: “Observation time begins at the clock time documented in the patient’s
medical record, which coincides with the time that observation care is initiated in accordance
with a physician’s order. Hospitals should not report, as observation care, services that are part
of another Part B service, such as postoperative monitoring during a standard recovery period
(e.g., 4-6 hours), which should be billed as recovery room services.”

For 10 of the 25 sampled claims, the Hospital incorrectly billed observation hours on claims
submitted to Medicare, resulting in incorrect outlier payments. For nine claims, the Hospital
overstated the hours of observation because it did not allow for the normal recovery period
expected postoperatively. For one claim, the Hospital’s claim did not contain an order for the
observation level of care. As a result, the Hospital received overpayments totaling $3,789.

RECOMMENDATIONS

We recommend that the Hospital:

   •   refund to the Medicare contractor $26,804, consisting of $23,015 in overpayments for 6
       incorrectly billed inpatient claims and $3,789 in overpayments for 10 incorrectly billed
       outpatient claims, and

   •   strengthen controls to ensure full compliance with Medicare requirements.

KENT COUNTY HOSPITAL COMMENTS

In written comments on our draft report, the Hospital concurred with our findings and
recommendations. The Hospital’s comments are included in their entirety as the Appendix.




                                                 6
APPENDIX
                          APPENDIX: KENT COUNTY HOSPITAL COMMENTS




 KENT
HOSPITAL


          February 21, 2012


         Mr. Michael J. Armstrong
         Regional Inspector General for Audit Services
         Department of Health and Human Services
         Office of Audit Services, Region I
         John F. Kennedy Federal Building
         Room 2425
         Boston, Massachusetts 02203

         Re: Report Number A-O 1-11-00537

         Dear Mr. Armstrong:

         Kent County Memorial Hospital is in receipt of the draft report from the U.S. Department of
         Health and Human Services, Office of Inspector General (orG) entitled Medicare Compliance
         Review of Kent County Hospital for Calendar Years 2009 and 2010.

         The 01G identified 16 claims with billing errors that resulted in overpayments totaling $26,804.
         Kent County Memorial Hospital concurs with the findings and recommendations made by the
         OIG. The findings will be addressed by Kent County Memorial Hospital as follows:

                    I. Kent County Memorial Hospital will refund $26, 804 to its Medicare Contractor.
                    2. Additional processes have been put in place prior to billing to ensure that appropriate
                       physician orders are present including the institution of a computerized physician
                       order entry system.
                    3. Case Managers are being retrained on the application of InterQual admission criteria
                       and all I day admissions are being re-reviewed prior to billing.
                    4. Coders have been re-educated on the proper calculation of observation billable hours,
                       and a new worksheet is being incorporated into the 3M Data Abstraction software
                       system to ensure that start and end times and carve-outs are properly recognized.

         Kent County Memorial Hospital takes the 010 findings and recommendations very seriously, and
         will continually strive to ensure the appropriate safeguards are in place to demonstrate Medicare
         billing compliance. Please do not hesitate to contact me if any further information is necessary.

         Sincerely,
        ~    )/)
         \ Ja l ~.
         Paul A. Beaudoin
         Senior Vice President of Finance


         cc: Sandra Coletta, President and Chief Executive Officer, Kent County Memorial Hospital


                                       A CARE NE W ENGLAND H OS PITAL

        455 To! [   GATr !-tOAD · WARWICK.    RH OI>! hl AN I) 01886 . ..WI-737-7(JOO •   w\\'\\'.kL·nth()~plt:ll.org
